Nos. 20-316, 20-357
IN THE

Supreme Court of the United States

d

MARIA PAPPAS , Cook County Treasurer, et al.,
Petitioners,
—v.—
A.F. MOORE & ASSOCIATES , INC ., et al.,
Respondents.
FRITZ KAEGI , in his Capacity as Cook County Assessor,
Petitioners,
—v.—
A.F. MOORE & ASSOCIATES , INC ., et al.,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SEVENTH CIRCUIT

MOTION FOR LEAVE TO FILE AMICI CURIAE BRIEF AND
BRIEF OF AMICI CURIAE THE ILLINOIS ASSOCIATION OF
SCHOOL BOARDS, THE ILLINOIS ASSOCIATION OF
SCHOOL BUSINESS OFFICIALS, BOARDS OF EDUCATION
OF CONSOLIDATED HIGH SCHOOL DISTRICT NO. 230,
NORTH PALOS SCHOOL DISTRICT 117, LEYDEN
COMMUNITY HIGH SCHOOL DISTRICT 212, TOWNSHIP
HIGH SCHOOL DISTRICT 214, COMMUNITY
CONSOLIDATED SCHOOL DISTRICT 59, HOOVER-SCHRUM
MEMORIAL SCHOOL DISTRICT 157, NILES ELEMENTARY
SCHOOL DISTRICT 71, NILES TOWNSHIP HIGH SCHOOL
DISTRICT 219, THORNTON FRACTIONAL HIGH SCHOOL
DISTRICT 215 AND THE CITY OF CALUMET CITY IN
SUPPORT OF PETITION FOR WRIT OF CERTIORARI
(Counsel on inside cover)

WILLIAM R. POKORNY
Counsel of Record
SCOTT R. METCALF
ARES G. DALIANIS
CAROLINE K. KANE
FRANCZEK P.C.
300 South Wacker Drive,
Suite 3400
Chicago, Illinois 60606
(312) 786-6141
wrp@franczek.com
Attorneys for Amici The Illinois
Association of School
Business Officials, and the
Boards of Education of
Consolidated High School
District No. 230, North Palos
School District No. 117,
Leyden Community High
School District No. 212,
Township High School
District No. 214, and
Community Consolidated
School District No. 59
JOHN J. MURPHY
HIMES, PETRARCA
& FESTER CHTD.
Two Prudential Plaza, #3100
180 North Stetson
Chicago, Illinois 60601
Attorneys for Amicus The
Board of Education of
Thornton Fractional
Township High School
District No. 215

JOHN M. IZZO
JOEL R. DETELLA
ANTHONY SCARIANO III
MATTHEW J. WALTERS
HAUSER, IZZO, PETRARCA,
GLEASON & STILLMAN, LLC
19730 Governors Highway,
Suite 10
Flossmoor, Illinois 60422
Attorneys for Amici The Illinois
Association of School Boards,
and the Boards of Education
of Hoover-Schrum Memorial
School District No. 157, Niles
Elementary School District
No. 71, and Niles Township
High School District No. 219
ROBERT WILDER
ODELSON, STERK, MURPHEY,
FRAZIER & MCGRATH, LTD.
3318 West 95th Street
Evergreen Park, Illinois 60805
Attorneys for Amicus City of
Calumet City, Illinois

1
MOTION FOR LEAVE
TO FILE BRIEF OF AMICI CURIAE
Pursuant to Supreme Court Rule 37.2, the Illinois
Association of School Boards, the Illinois Association
of School Business Officials, nine Illinois Boards of
Education, and one Illinois municipality respectfully
move under Rule 37.2(b) for leave to file the attached
amici curiae brief in support of Petitioners, Maria
Pappas, Treasurer and ex-officio Collector of Cook
County, Illinois, the County of Cook, and Fritz Kaegi,
in his capacity as Cook County Assessor.
All parties were timely notified of Amici’s intent to
file an amici curiae brief. Petitioners have consented
to the filing. Respondents have not consented to the
filing. Amici thus file this motion seeking leave of
Court to file the attached amicus curiae brief.
The Illinois Association of School Boards is a
voluntary, private not-for-profit corporation under
authority granted by Article 23 of the Illinois School
Code comprised of 99.8% of the public school boards of
education that educate approximately 1,978,970
students in Illinois, which advocates on behalf of public
education to provide a strong collective voice on
common interests and concerns, such as issues that
affect the financial well-being of Illinois school districts.
The Illinois Association of School Business Officials is
an affiliate of ASBO International, an organization
focused on the advancement of sound school business
practices
and
school
business
management
professionals. The Boards of Education of Consolidated
High School District No. 230, North Palos School
District 117, Leyden Community High School District
212, Township High School District 214, Community
Consolidated School District 59, Hoover-Schrum
Memorial School District 157, Niles Elementary School

2
District 71, Niles Township High School District 219,
Thornton Fractional High School District 215, the City
of Calumet City are each taxing districts in Cook
County, Illinois for the properties at issue in this
litigation for which Plaintiffs seek injunctive and
declaratory relief and, ultimately, property tax refunds.
The Petition seeks review of the decision of the
United States Court of Appeals for the Seventh
Circuit holding that the Tax Injunction Act does not
bar federal equal protection claims by certain Illinois
property taxpayers because, according to the Seventh
Circuit, the taxpayers do not have a “plain, speedy
and efficient” remedy. Movants respectfully submit
that the proffered brief will contribute to a fuller
understanding of why this Court should grant
certiorari in this case.
Amici have a unique and substantial interest in
this litigation because the Petitioners ultimately have
no financial or economic stake in the litigation,
whereas Amici are the actual taxing bodies whose
revenues will be substantially affected by the
Seventh Circuit’s ruling.
Movants respectfully submit that the proffered
brief will bring to the Court’s attention several
categories of relevant, additional information. The
Amici are very familiar with the questions involved
in this litigation and are uniquely qualified to provide
the Court with a valuable perspective on the issues
raised by this case that is distinct from the
perspectives of the parties, particularly the
significant consequences to the Amici and other
Illinois taxing bodies.
Specific to the instant case, in the event
Respondents prevail on their purported constitutional
claims and are ultimately awarded the property tax

3
refunds sought, the Amici taxing districts will be
responsible, in the aggregate, for approximately 70%
of the approximately $27 million dollars in refunds
requested by Respondents.
More broadly and beyond the instant case, the
consequences of the Seventh Circuit’s decision are of
even greater concern to the Amici because taxing
districts depend on the predictable and orderly
administration of property tax refunds afforded by
the long-established system for property tax refund
claims created by the Illinois Property Tax Code. The
Seventh Circuit’s ruling creates the possibility of
significant federalization of tax refund claims which
is likely to upend the existing predictable and orderly
paradigm and create confusion, unpredictability,
uncertainty and expense, thereby significantly
impairing the taxing districts’ ability to provide
services to their respective communities.
CONCLUSION
For the foregoing reasons, Amici hereby request
the Court grant leave to file the attached brief in
support of Petitioners.
Respectfully Submitted,
William R. Pokorny
Counsel of Record
Scott R. Metcalf
Ares G. Dalianis
Caroline K. Kane
Franczek P.C.
300 South Wacker Drive, Suite 3400
Chicago, Illinois 60606
(312) 786-6141
wrp@franczek.com

Nos. 20-316, 20-357
IN THE

Supreme Court of the United States

d

MARIA PAPPAS , Cook County Treasurer, et al.,
Petitioners,
—v.—
A.F. MOORE & ASSOCIATES , INC ., et al.,
Respondents.
FRITZ KAEGI , in his Capacity as Cook County Assessor,
Petitioners,
—v.—
A.F. MOORE & ASSOCIATES , INC ., et al.,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SEVENTH CIRCUIT

BRIEF OF AMICI CURIAE THE ILLINOIS ASSOCIATION OF
SCHOOL BOARDS, THE ILLINOIS ASSOCIATION OF
SCHOOL BUSINESS OFFICIALS, BOARDS OF EDUCATION
OF CONSOLIDATED HIGH SCHOOL DISTRICT NO. 230,
NORTH PALOS SCHOOL DISTRICT 117, LEYDEN
COMMUNITY HIGH SCHOOL DISTRICT 212, TOWNSHIP
HIGH SCHOOL DISTRICT 214, COMMUNITY
CONSOLIDATED SCHOOL DISTRICT 59, HOOVER-SCHRUM
MEMORIAL SCHOOL DISTRICT 157, NILES ELEMENTARY
SCHOOL DISTRICT 71, NILES TOWNSHIP HIGH SCHOOL
DISTRICT 219, THORNTON FRACTIONAL HIGH SCHOOL
DISTRICT 215 AND THE CITY OF CALUMET CITY IN
SUPPORT OF PETITION FOR WRIT OF CERTIORARI
(Counsel on inside cover)

WILLIAM R. POKORNY
Counsel of Record
SCOTT R. METCALF
ARES G. DALIANIS
CAROLINE K. KANE
FRANCZEK P.C.
300 South Wacker Drive,
Suite 3400
Chicago, Illinois 60606
(312) 786-6141
wrp@franczek.com
Attorneys for Amici The Illinois
Association of School
Business Officials, and the
Boards of Education of
Consolidated High School
District No. 230, North Palos
School District No. 117,
Leyden Community High
School District No. 212,
Township High School
District No. 214, and
Community Consolidated
School District No. 59
JOHN J. MURPHY
HIMES, PETRARCA
& FESTER CHTD.
Two Prudential Plaza, #3100
180 North Stetson
Chicago, Illinois 60601
Attorneys for Amicus The
Board of Education of
Thornton Fractional
Township High School
District No. 215

JOHN M. IZZO
JOEL R. DETELLA
ANTHONY SCARIANO III
MATTHEW J. WALTERS
HAUSER, IZZO, PETRARCA,
GLEASON & STILLMAN, LLC
19730 Governors Highway,
Suite 10
Flossmoor, Illinois 60422
Attorneys for Amici The Illinois
Association of School Boards,
and the Boards of Education
of Hoover-Schrum Memorial
School District No. 157, Niles
Elementary School District
No. 71, and Niles Township
High School District No. 219
ROBERT WILDER
ODELSON, STERK, MURPHEY,
FRAZIER & MCGRATH, LTD.
3318 West 95th Street
Evergreen Park, Illinois 60805
Attorneys for Amicus City of
Calumet City, Illinois

i
BRIEF OF AMICI CURIAE
TABLE OF CONTENTS

PAGE

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . .

ii

INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . .

1

FACTUAL BACKGROUND . . . . . . . . . . . . . . . . . . . .

2

SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . .

4

ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

6

I. Federalizing State Law Property Tax
Objections Will Cripple School Districts
and Units of Local Government . . . . . . . . .

6

A. Federalizing Property Tax Objection
Proceedings Creates Uncertainty
Over Intervention and Opens
Taxing Districts to Liability for
Attorneys’ Fees . . . . . . . . . . . . . . . . . . . . . .

7

B. State Property Tax Objection
Claims Brought as Class Actions
Under § 1983 Would Devastate the
Finances of School Districts and
Local Governments . . . . . . . . . . . . . . . . . .

9

C. Injunctive Relief Would Harm Taxing
Bodies’ Ability to Manage Refunds
and Collect Revenue . . . . . . . . . . . . . . . . .

10

D. State Courts Are Better Positioned
to Adjudicate Tax Objection
Complaints. . . . . . . . . . . . . . . . . . . . . . . . . . .

12

ii
PAGE

II. Illinois Courts are the Proper Forum for
Reconciling Constitutional Protections
with State Tax Objection Procedures. . . .

13

A. Section 23-15 Does Not Foreclose or
Limit Constitutional Remedies . . . . . .

14

B. Any Doubts as to Whether State
Law Affords A Remedy for Plaintiffs’
Constitutional Claims Should Be
Resolved in State Court . . . . . . . . . . . . . .

16

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

17

iii
TABLE OF AUTHORITIES

PAGE(S)

Cases
Beverly Bank v. Bd. of Review of Will County,
117 Ill. App. 3d 656, 453 N.E.2d 96
(3d Dist. 1983) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

14

Blount v. Stroud,
232 Ill. 2d 302, 904 N.E.2d 1 (2009) . . . . . . . .

16

Charles v. Daley,
846 F.2d 1057 (7th Cir. 1988) . . . . . . . . . . . . . . .

8

Chicago Teachers Union v.
Bd. of Ed. of the City of Chicago,
662 F.3d 761 (7th Cir. 2011) . . . . . . . . . . . . . . . .

17

Clarendon Associates v. Korzen,
56 Ill. 2d 101, 306 N.E.2d 299 (1973) . . . . . . .

11

People ex rel. Devine v. Murphy,
181 Ill. 2d 522, 693 N.E.2d 349 (1998) . . . . . .

15

Expressions Hair Design v. Schneiderman,
581 U.S. ___ (2017) . . . . . . . . . . . . . . . . . . . . . . . . .

17

Fair Assessment in Real Estate Assn, Inc. v. McNary,
454 U.S. 100 (1981) . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 16
Fakhoury v. Pappas,
395 Ill. App. 3d 302, 916 N.E.2d 1161
(1st Dist. 2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

9

Finn v. Tucker,
81 Ill. App. 3d 1038, 402 N.E.2d 358
(2d Dist. 1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

11

iv
PAGE(S)

Golf Trust of America, L.P. v. Soat,
355 Ill. App. 3d 333, 822 N.E.2d 562
(2d Dist. 2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

15

Hyatt v. Yee,
871 F.3d 1067 (9th Cir. 2017) . . . . . . . . . . . . . . .

8

Lakefront Realty Corp. v. Lorenz,
19 Ill. 2d 415, 167 N.E.2d 236 (1960) . . . . . . .

11

Levin v. Commerce Energy, Inc.,
560 U.S. 413 (2010) . . . . . . . . . . . . . . . . . . . . . . . . .

12

Lowe v. Washoe County,
627 F.3d 1151 (9th Cir. 2010) . . . . . . . . . . . . . . .

9

Madison Two Associates v. Pappas,
227 Ill. 2d 474, 884 N.E.2d 142 (2008) . . . . . 5, 7, 13
Maher v. Gagne,
446 U.S. 122 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

8

Seibring v. Parcell’s Inc.,
159 Ill. App. 3d 676, 512 N.E.2d 394
(4th Dist. 1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

16

Waldron v. Collins,
788 F.2d 736 (11th Cir. 1986) . . . . . . . . . . . . . . .

9

Statutes
35 ILCS 200/14-15 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

3

35 ILCS 200/23-5 et seq . . . . . . . . . . . . . . . . . . . . . . . .

3

35 ILCS 200/23-15 . . . . . . . . . . . . . . . . . . . . . 6, 8, 14, 15, 16
35 ILCS 200/23-15(a) . . . . . . . . . . . . . . . . . . . . . . . . . . .

9

35 ILCS 200/23-20 . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 10, 11

v
PAGE(S)

105 ILCS 5/23-1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

28 U.S.C. § 1341, Tax Injunction Act. . . . . . . . . . . passim
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 1988(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

5, 8

Code of Civil Procedure § 2-404 . . . . . . . . . . . . . . . .

9

Freedom of Information Act . . . . . . . . . . . . . . . . . . . .

4

Illinois School Code Article 23 . . . . . . . . . . . . . . . . .

1

Rules
Federal Rule of Civil Procedure 23 . . . . . . . . . . . . .

9

Federal Rule of Civil Procedure 24 . . . . . . . . . . . . .

7

Supreme Court Rule 37.3(a) . . . . . . . . . . . . . . . . . . .

1

Other Authorities
Report of the Task Force on Reform of the Cook
County Property Tax Appeals Process
https://www.civicfed.org/Task-Force-ReformCook-County-Property-Tax-Appeals . . . . . . . .

15

Illinois Department of Revenue, 2018 Property
Tax Statistics – Table D, https://www2.
illinois.gov/rev/research/taxstats/
PropertyTaxStatistics/SitePages/
Property TaxYear.aspx?rptYear=2018) . . . . .

3

State of Illinois First Judicial District, Clerk of the
Circuit Court of Cook County, County Division
http://www.cookcountyclerk
ofcourt.org/NewWebsite/Departments/CountyDivision.aspx . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
12

1
INTEREST OF AMICI CURIAE 1
The Illinois Association of School Boards (IASB) is
a voluntary, private not-for-profit corporation under
authority granted by Article 23 of the Illinois School
Code (105 ILCS 5/23-1, et al.). IASB is comprised of
99.8% of the public-school boards of education that
educate approximately 1,978,970 students in Illinois.
IASB advocates on behalf of public education to
provide strong collective voice on common interests
and concerns, such as issues that affect the financial
well-being of Illinois school districts. Like the nine
school district Amici, IASB members rely on property
tax revenue to provide public education in their
communities and will be directly, negatively impacted
by the Seventh Circuit’s decision.
The Illinois Association of School Business Officials
(IASBO) is devoted to the school business
management profession. It provides members and
stakeholders with a comprehensive range of
professional development activities, services and
advocacy through networking and participation
focused on the business, finances, and operations of
schools. IASBO’s membership includes 1,427 Illinois
public school employees ranging from superintendents to support staff. Like the nine school
district Amici, IASBO members rely on property tax
revenue to provide public education in their
1 No counsel for a party authored this brief in whole or in part,
and no person or entity, other than amici curiae, their members,
and their counsel, made a monetary contribution to the
preparation or submission of this brief.
Pursuant to Rule 37.3(a), Petitioners have granted
permission for the filing of the instant amicus curiae brief.
Respondents denied permission. Accordingly, Amici have moved
for leave to file this brief.

2
communities and will be directly, negatively impacted
by the Seventh Circuit’s decision.
Amici also include nine Illinois school districts and
a municipality within which Respondents’ properties
are located and which will be adversely affectedly the
property tax refunds sought by Respondents. Unlike
the Petitioners, these taxing districts have a direct
financial interest in the outcome of this litigation
because they received the disputed property taxes. If
Respondents ultimately prevail on their claims and
are awarded the property tax refunds sought, these
Amici would collectively be forced to finance from
their current revenues the refund of approximately
$19.2 million, plus interest. This would have a
crippling effect on the ability of these Amici to
provide public education and municipal services to
their communities. These taxing district Amici are:
the Boards of Education of Consolidated High School
District 230, North Palos School District 117, Niles
Township High School District 219, Niles Elementary
School District 71, Township High School District
214, Community Consolidated School District 59,
Leyden Community High School District 212,
Thornton Fractional Township High School District
215, Hoover-Schrum Memorial School District 157,
and the City of Calumet City.
FACTUAL BACKGROUND
Illinois school districts and municipalities
overwhelmingly rely on real estate tax revenue to
operate. According to the Illinois Department of
Revenue, in 2018, Illinois school districts extended
$18.5 billion in real estate taxes while Illinois

3
municipalities extended $6 billion. 2 Together, this
amount is slightly over 77% of the $31.8 billion total
real estate taxes paid by Illinois taxpayers in 2018. 3
Those dissatisfied with their real estate tax bill in
Illinois have multiple ways to obtain a reduction in
the assessed value of their property and thereby
obtain a refund of the excess property taxes they
paid. A taxpayer can file a complaint in state circuit
court under Article 23 of the Illinois Property Tax
Code (35 ILCS 200/23-5, et seq.). These complaints,
known variously as tax objection complaints,
valuation objections, or specific objections (SPOs), are
the subject of the underlying litigation in the present
case. Alternatively, a taxpayer may file an appeal
with the Illinois Property Tax Appeal Board (PTAB),
an administrative agency of the State of Illinois with
the sole mission of adjudicating real estate tax
assessment disputes. A taxpayer may also file an
application with a local assessing official for a
certificate of error, which may result in an
administrative correction made by the local assessing
official. Once granted by the local assessing official,
certificates of error must be approved by a circuit
court pursuant to Section 14-15 of the Illinois
Property Tax Code (35 ILCS 200/14-15).
The refunds granted through these means are paid
to the taxpayer from the current collections of school
districts and other units of local government that levy
property taxes, which are often referred to as taxing
districts. Section 23-20 of the Illinois Property Tax
Illinois Department of Revenue, 2018 Property Tax Statistics –
Table D, https://www2.illinois.gov/rev/research/taxstats/Property
TaxStatistics/SitePages/PropertyTaxYear.aspx?rptYear=2018
(accessed Oct. 2, 2020).
3 Id.
2

4
Code (35 ILCS 200/23-20) provides not only that a
county treasurer is to pay the property tax refunds
ordered by a court or by the PTAB from the current
collections of taxing districts, but also that the
refunds must include interest that accumulates from
the date the taxes were paid until the date of the
refund. Id.
In response to a Freedom of Information Act
request from the nine taxing district Amici, the Cook
County Treasurer’s Office provided information on
the number of property tax refunds processed each
year between 2015 and 2019. During that time, Cook
County taxpayers received nearly 660,000 property
tax refunds totaling $1.6 billion dollars. The 74,823
refunds from tax objection complaints filed in circuit
court resulted in $562,870,044 in refunds. This is in
addition to the 584,315 refunds from PTAB appeals
and certificates of error totaling $1,061,998,931.
SUMMARY OF ARGUMENT
School districts and other units of local government
rely heavily upon property tax revenue to provide
public education and other vital services. The
Seventh Circuit’s decision in this case will have a
vast and crippling effect on the finances of these
public entities by allowing taxpayers to sidestep the
existing remedies afforded by state law to bring tax
objection cases in federal court. Allowing taxpayers to
pursue tax objection complaints in federal and state
courts will open a Pandora’s box of issues.
Additionally, the decision below was based on a
misinterpretation of Illinois law. Such an important
interpretation of Illinois law should have been
entrusted to the Illinois Supreme Court and not
undertaken by the Seventh Circuit.

5
First, allowing tax objection complaints to proceed
in federal court as 42 U.S.C. § 1983 actions will
create a multitude of practical problems for federal
courts and litigants. In particular, the Seventh
Circuit’s decision will interfere with the ability of
taxing districts, the parties financially impacted by
tax objection complaints, to protect their interests in
the proceedings. Although taxing districts have an
established right to intervene in state court
proceedings on tax objection complaints under the
Illinois Supreme Court’s decision in Madison Two
Associates v. Pappas, 227 Ill. 2d 474, 884 N.E.2d 142
(2008), that right has never been established in
federal court. Moreover, even if taxing districts are
allowed to intervene in federal court, under Seventh
Circuit precedent, they risk significant additional
cost by doing so, as they may be subjected to paying a
prevailing taxpayers’ attorneys’ fees under 42 U.S.C.
§ 1988(b). Federal litigation also creates the potential
for tax objection complaints to be brought as class
action lawsuits, an option specifically prohibited for
good reason, by Illinois law. Additionally, federal
court injunctions to issue refunds will severely limit a
taxing district’s ability to structure a large refund in
a manner that will not bankrupt the taxing district.
Finally, and perhaps most concerning, is the
possibility of a federal court injunction preventing the
collection of real estate taxes, something that is
specifically prohibited by Illinois law. None of these
potential problems exist if tax objection complaints
continue to proceed in state court as the Tax
Injunction Act intended.
Second, there is substantial legal authority to
support the conclusion that the Illinois Property Tax
Code in no way prevents a taxpayer from raising a §
1983 claim in state court. Before the 1995

6
amendments that rewrote the Property Tax Code and
created the statutory provisions now at issue, Illinois
case law recognized that constitutional claims could
be brought as part of a tax objection complaint. The
ability to bring constitutional claims in a tax
objection complaint was then specifically recognized
in the official legislative history of the 1995
amendments to the Property Tax Code. Since the
1995 amendments, Illinois courts have continued to
recognize that tax objection complaints can include
alleged violations of constitutional rights. Given all
this, the Seventh Circuit overstepped the proper
boundaries between federal and state courts in
interpreting Section 23-15 of the Illinois Property Tax
Code (35 ILCS 200/23-15). Whether taxpayers can
bring a § 1983 claim in state court as part of a tax
objection complaint is a question that should have
been presented to the Illinois Supreme Court for its
interpretation of state law. For all these reasons,
Amici respectfully urge the Court to grant the
petitions and review the Seventh Circuit’s decision.
ARGUMENT
I. Federalizing State Law Property Tax
Objections Will Cripple School Districts and
Units of Local Government.
If the decision below stands, it will have a vast and
crippling impact on the finances of Illinois school
districts, municipalities, and other taxing districts.
Federalizing property tax objection complaints under
§ 1983 creates uncertainty about taxing districts’
ability to intervene in the proceedings, opens taxing
districts to potential liability for attorneys’ fees, and
allows for possible class action certification and
injunctive relief. For all these reasons, Illinois state

7
courts are best suited to resolve these cases in a
timely and efficient manner.
A. Federalizing Property Tax Objection
Proceedings Creates Uncertainty Over
Intervention and Opens Taxing Districts
to Liability for Attorneys’ Fees.
Illinois taxing districts can and do intervene in
State court property tax litigation to protect their
significant revenue interests in those cases. By
allowing tax objection complaints to be heard in
federal courts, the Seventh Circuit’s decision exposes
taxing districts to uncertainty and potentially
significant litigation costs.
In Madison Two Associates, the Illinois Supreme
Court recognized that taxing districts have a legally
cognizable interest in the outcome of tax objection
proceedings and therefore a right to intervene in the
proceedings pursuant to the Illinois Code of Civil
Procedure. Since that decision, Illinois taxing
districts have regularly intervened in state court
proceedings to defend their revenue interest and
negotiate settlements on terms that protect their
financial well-being. It is uncertain whether taxing
districts would be allowed to intervene in federal
court proceedings to protect their interests because
there is no similar precedent on which to rely.
Intervention in federal court would have to be
pursued under Federal Rule of Civil Procedure 24.
However, because no taxing district in Illinois has
previously attempted to intervene in federal court
proceedings concerning property tax assessments, the
issue would likely be litigated. Because it is not clear
how a court would rule on the issue, the decision
below creates the possibility that taxing districts will
be forced to watch from the sidelines as other parties

8
decide the distribution of millions of dollars the
taxing districts need to provide public services in
their communities.
Section 23-15 of the Illinois Property Tax Code does
not provide for an award of attorney’s fees to the
prevailing party in tax objection complaints. The
inability to obtain an attorney’s fee award does not
deprive a taxpayer of a plain, speedy, and efficient
remedy for purposes of the exception to the Tax
Injunction Act, 28 U.S.C. § 1341. Hyatt v. Yee, 871
F.3d 1067, 1075 (9th Cir. 2017). However, if tax
objection complaints are allowed to proceed in federal
court via § 1983 and are successful, the taxpayers
would ostensibly be “prevailing parties” under 42
U.S.C. § 1988(b) and entitled to reasonable attorney’s
fees. Therefore, if a taxing district intervenes to
protect its revenue interests under this scenario,
which is common, the taxing district would risk being
held responsible for a share of any attorney’s fees
awarded. See e.g. Charles v. Daley, 846 F.2d 1057
(7th Cir. 1988). Indeed, even if the parties were to
settle the underlying claim, the taxpayer could
petition the district court for its attorney’s fees. See
e.g. Maher v. Gagne, 446 U.S. 122. 129 (1980) (“The
fact that respondent prevailed though a settlement
rather than through litigation does not weaken her
claim to fees.”) This extra layer of fiscal burden on
Illinois taxing districts would exacerbate the already
severe hardship and public harm posed by the loss of
revenue.

9
B. State Property Tax Objection Claims
Brought as Class Actions Under § 1983
Would Devastate the Finances of School
Districts and Local Governments.
Section 23-15(a) of the Illinois Property Tax Code
allows joinder of plaintiffs but specifically precludes
property tax objection complaints from being brought
as class action lawsuits. See 35 ILCS 200.23-15(a)
(“Joinder of plaintiffs shall be permitted to the same
extent permitted by law in any personal action
pending in the court and shall be in accordance with
Section 2-404 of the Code of Civil Procedure;
provided, however, that no complaint shall be filed as
a class action.”); Fakhoury v. Pappas, 395 Ill. App. 3d
302, 307, 916 N.E.2d 1161, 1167 (1st Dist. 2009). The
administrative and financial reasons behind this
policy decision of the Illinois General Assembly are
manifest given the amount of public funds at stake.
Moreover, the absence of a class action procedure in a
state remedy for litigating tax matters does not
render those procedures inadequate within the
meaning of the Tax Injunction Act, 28 U.S.C. § 1341.
Lowe v. Washoe County, 627 F.3d 1151, 1156 (9th Cir.
2010); Waldron v. Collins, 788 F.2d 736, 1075 (11th
Cir. 1986). However, if tax objection complaints are
permitted in federal courts, a court could certify
nearly every Illinois property-taxpayer as a class
member under Federal Rule of Civil Procedure 23.
This would mark a dramatic change from current
Illinois law, upending the General Assembly’s
determination that tax objection cases should be
decided on their individual merits.
Further, because of the “opt-out” notice procedures
under Fed. R. Civ. P. 23, the ability to bring tax
objection complaints in federal court under § 1983
would dramatically increase the number of plaintiffs

10
challenging assessments, which in turn would expose
taxing districts to potentially devastating revenue
losses. The huge financial risks of such claims may
force settlements even in non-meritorious cases.
Ignoring the Illinois General Assembly’s express
decision to disallow class action property tax actions
runs directly counter to the principle of comity long
recognized by the federal courts. Fair Assessment in
Real Estate Assn, Inc. v. McNary, 454 U.S. 100, 102
(1981) (“This Court, even before the enactment of §
1983, recognized the important and sensitive nature
of state tax systems and the need for federal-court
restraint when deciding cases that affect such
systems.”).
C. Injunctive Relief Would Harm Taxing
Bodies’ Ability to Manage Refunds and
Collect Revenue.
In the same vein, injunctive relief, the relief
expressly requested by Respondents, has also been
prohibited by the Illinois General Assembly as it
applies to property tax objection complaints and
would completely disrupt Illinois taxing districts’
revenue streams. See 35 ILCS 200/23-20 (“No protest
shall prevent or be a cause of delay in the distribution
of tax collections to the taxing districts of any taxes
collected which were not paid under protest.”). A
federal injunction (along with declaratory relief)
directing County Treasurers to immediately issue
refunds would prevent scenarios in which taxing
districts, through their representatives, agree with
taxpayers to have refunds issued over time, which is
common and necessary so that revenue streams are
not completely decimated in one year.
For example, if a federal court orders a
$10,000,000.00 refund to a large commercial property

11
owner, a taxing district’s share of that refund (based
on their tax rate for the applicable year) would be
taken out of the taxing districts’ subsequent tax
collections by the County Treasurer the next year. 35
ILCS 200/23-20. For some taxing districts, that share
could be nearly 100% of their annual revenue from
property tax collections. Budgeting for these
shortfalls would be nearly impossible and would
inevitably lead to the disruption of essential
government services.
Even more concerning would be an injunction
against the collection of property taxes issued by a
federal court. Section 23-20 of the Illinois Property
Tax Code prohibits tax objection complaints from
delaying the collection and distribution of property
taxes. This prohibition on injunctive relief is
supported by longstanding Illinois Supreme Court
precedent. In Lakefront Realty Corp. v. Lorenz, 19 Ill.
2d 415, 167 N.E.2d 236 (1960), the Illinois Supreme
Court held that unless a tax is unauthorized by law
or levied against an exempt property, the collection of
property taxes will not be enjoined unless the
plaintiff does not have an adequate remedy at law.
Consequently, the Illinois Supreme Court has denied
a request for injunctive relief restraining the
collection of taxes where a plaintiff alleged that, inter
alia,
the
assessments
at
issue
were
“disproportionately higher than those of other similar
property[.]” Clarendon Associates v. Korzen, 56 Ill. 2d
101, 105, 306 N.E.2d 299, 301 (1973).
Underlying the statutory and judicial prohibitions
against injunctive relief in property tax objection
cases is the understanding that taxing districts rely
on timely and consistent revenue streams. Finn v.
Tucker, 81 Ill. App. 3d 1038, 1040, 402 N.E.2d 358,
360 (2d Dist. 1980). If plaintiffs are permitted to

12
circumvent state statutorily prescribed remedies and
pursue injunctive relief in federal court, taxing
district revenue streams (and consequently taxing
district services) will be severely disrupted.
D. State Courts Are Better Positioned to
Adjudicate Tax Objection Complaints
The principle of comity “serves to ensure that ‘the
National Government, anxious though it may be to
vindicate and protect federal rights and federal
interests, always endeavors to do so in ways that will
not unduly interfere with the legitimate activities of
the States.’” Levin v. Commerce Energy, Inc., 560 U.S.
413, 431 (2010) (quoting Younger v. Harris, 401 U.S.
37, 44 (1971)). One factor in deciding whether the
comity doctrine precludes federal courts from hearing
State tax-related claims is whether State courts are
“better positioned than their federal counterparts to
correct any [constitutional] violation because they are
more familiar with state legislative preferences and
because the [Tax Injunction Act] does not constrain
their remedial options.” Levin, 560 U.S. at 431-32.
This is true with respect to adjudication of property
tax matters in Cook County. Cook County has its own
division (County Division) and a select few judges
who are routinely assigned property tax objection
complaints 4. These judges are knowledgeable about
and familiar with the procedural and substantive law
governing property tax objection complaints and are
sensitive to both taxpayer and taxing district
interests.
The
assigned
judges
are
also
State of Illinois First Judicial District, Clerk of the Circuit
Court of Cook County, County Division http://www.cookcounty
clerkofcourt.org/NewWebsite/Departments/County-Division.aspx
(accessed Oct. 2, 2020).

4

13
knowledgeable about how Illinois property taxes are
levied, collected, and refunded.
Moreover, state court proceedings provide taxing
districts the ability to protect their revenue interests
in tax objection complaints better than the state’s
attorney’s offices that are otherwise statutorily
charged with defending these cases. Once they learn
of the existence of a tax objection complaint, taxing
districts have a clear right to intervene under the
Madison Two decision. Once in the case, taxing
districts approach the litigation like a party with a
financial stake in the outcome. While the state’s
attorney’s office is statutorily charged with defending
the case, the sheer volume of cases and lack of
available resources can result in tax objection
complaints being resolved based more on
administrative concerns than the financial concerns
of the taxing districts. Once a taxing district becomes
involved in the state court litigation, that taxing
district can influence the outcome of the litigation in
a manner that places the financial interests of the
taxing district at the forefront.
Taken together, Cook County’s legitimate system of
adjudicating State property tax matters should not be
disturbed because the state courts are equipped to
adjudicate them fairly and efficiently.
II. Illinois Courts are the Proper Forum for
Reconciling Constitutional Protections with
State Tax Objection Procedures.
In light of these potentially crippling effects on the
administration of the state’s property tax system and
the resulting financial crisis that could be created for
school districts and units of local government, the
principles of comity mandate that the question of
whether Respondents can pursue their constitutional

14
claims through an action under Section 23-15 of the
Illinois Property Tax Code in state court should be
decided in the first instance by the Illinois Supreme
Court.
The Seventh Circuit ruled that Respondents’
constitutional equal protection claims brought under
§ 1983 could be maintained in federal court because
Section 23-15 did not provide Respondents’ with an
adequate remedy for the alleged equal protection
violations. Amici concur with Petitioners that Illinois
law already affords Respondents with a “plain,
speedy, and efficient remedy” for adjudicating
Respondents’ claims. Amici further agree with
Petitioners that the Seventh Circuit’s conclusion is
contrary to this Court’s precedent and fundamental
principles of comity which hold that state courts are
the exclusive forum for reconciling tax objection
procedures with federal constitutional protections.
For these reasons, Amici urge the Court to grant the
petitions and either reverse the Seventh Circuit’s
decision or reverse and remand the case with
instructions to certify the question to the Illinois
Supreme Court.
A. Section 23-15 Does Not Foreclose or Limit
Constitutional Remedies.
The Seventh Circuit concluded that the tax
objection procedures of Section 23-15 foreclosed the
availability of an alternative constitutional remedy in
state court. Illinois case law and legislative history
contradict this conclusion.
Before Section 23-15’s enactment in 1995, Illinois
courts held that equal protection claims under § 1983
could be brought in state court. Beverly Bank v. Bd. of
Review of Will County, 117 Ill. App. 3d 656, 453
N.E.2d 96 (3d Dist. 1983) (reversing the dismissal of

15
a § 1983 complaint alleging violation of the equal
protection clause in the assessment of real property).
The legislative history to the 1995 amendments of the
Property Tax Code confirms that these amendments
merely expanded the remedies available to taxpayers
and did not foreclose previously available
constitutional remedies. The Report of the Task Force
on Reform of the Cook County Property Tax Appeals
Process 5 was incorporated as a key component of the
legislative history of Section 23-15. People ex rel.
Devine v. Murphy, 181 Ill. 2d 522, 535 fn. 1, 693
N.E.2d 349, 355 fn. 1 (1998); 89th Ill. Gen. Assem.,
Senate Proceedings, May 23, 1995, at 111
(statements of Senator O’Malley). The Civic
Federation Report states that:
The reformed tax objection procedure will
preserve the broad scope of the remedy
under existing law. Thus, not only incorrect
assessments, but also statutory misclassifications, constitutional violations, . . . and
any other legal or factual claims not
exclusively provided for in other parts of the
Property Tax Code, will fall within the ambit
of a tax objection complaint.
The Civic Federation, February 22, 1995, pg. 4. Since
the 1995 amendments, Illinois courts have continued
to address constitutional claims in property tax
objection cases. See e.g. Golf Trust of America, L.P. v.
Soat, 355 Ill. App. 3d 333, 341, 822 N.E.2d 562, 569
(2d Dist. 2005) (addressing the merits of a taxpayer’s
equal protection and due process claims). The
Seventh Circuit failed to give proper weight to this
precedent.
5
https://www.civicfed.org/Task-Force-Reform-Cook-CountyProperty-Tax-Appeals (visited Oc. 2, 2020)

16
Finally, the question of whether Section 23-15
affords a remedy for alleged constitutional violations
and whether Respondents may pursue claims under §
1983 in lieu of or in addition to this remedy is an
issue that should be decided by Illinois state courts,
subject to review by this Court. The Illinois Supreme
Court has made clear that “[c]ircuit courts are courts
of general jurisdiction, and are presumptively
competent to adjudicate claims under the laws of the
United States.” Blount v. Stroud, 232 Ill. 2d 302, 328,
904 N.E.2d 1, 17 (2009) (internal citations omitted).
This includes claims under § 1983. Seibring v.
Parcell's Inc., 159 Ill. App. 3d 676, 682, 512 N.E.2d
394, 398 (4th Dist. 1987). In McNary, this Court held
that where state courts have jurisdiction to hear tax
cases under § 1983, such claims must be brought in
state court under principles of comity. The Seventh
Circuit’s acceptance of federal jurisdiction over
Respondents’ § 1983 claim violates McNary and
should be reversed.
B. Any Doubts as to Whether State Law
Affords
A
Remedy
for
Plaintiffs’
Constitutional
Claims
Should
Be
Resolved in State Court
In its decision, the Seventh Circuit acknowledged
that no prior court, either state or federal, had
analyzed the availability of constitutional remedies in
Illinois courts since the passage of Section 23-15. As
noted above, this Court’s precedent holds that the
determination of the constitutionality of a state tax
regime should be decided in the first instance by a
state court. McNary, 454 U.S. at 116.
Accordingly, at a minimum the Seventh Circuit’s
decision should be reversed, and the Seventh Circuit
should be instructed to certify the question of

17
whether Plaintiffs can pursue their equal protection
claim in Illinois state courts to the Illinois Supreme
Court. See e.g. Expressions Hair Design v.
Schneiderman, 581 U.S. ___ (2017); Chicago Teachers
Union v. Bd. of Ed. of the City of Chicago, 662 F.3d
761 (7th Cir. 2011) (certifying questions of state law
“of substantial and ongoing importance” to the
Illinois Supreme Court in response to a petition for
rehearing).
CONCLUSION
For the foregoing reasons, Amici respectfully urge
this Court to grant the petition.
Respectfully Submitted,
The Illinois Association of School
Business Officials, and the Boards
of Education of Consolidated High
School District No. 230, North
Palos School District No. 117,
Leyden Community High School
District No. 212, Township High
School District No. 214, and
Community Consolidated School
District No. 59
William R. Pokorny
Counsel of Record
Scott R. Metcalf
Ares G. Dalianis
Caroline K. Kane
Franczek P.C.
300 South Wacker Drive
Suite 3400
Chicago, IL 60606

18
The Illinois Association of School
Boards, and the Boards of
Education of Hoover-Schrum
Memorial School District No. 157,
Niles Elementary School District
No. 71, and Niles Township High
School District No. 219
John M. Izzo
Joel R. DeTella
Anthony Scariano III
Matthew J. Walters
Hauser, Izzo, Petrarca, Gleason
& Stillman, LLC
19730 Governors Highway,
Suite 10
Flossmoor, IL 60422
City of Calumet City, Illinois
Robert Wilder
Odelson, Sterk, Murphey, Frazier
& McGrath, Ltd.
3318 W. 95th St.
Evergreen Park, IL 60805
The Board of Education of
Thornton Fractional Township
High School District No. 215
John J. Murphy
Himes, Petrarca & Fester Chtd.
Two Prudential Plaza, #3100
180 North Stetson
Chicago, IL 60601

